No. 20-639

 

 

IN THE
Supreme Court of the Enited States
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
Vv.
STEVE SISOLAK, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEVADA, et al.,
Respondents.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this
22"4 day of December, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing REPLY BRIEF FOR PETITIONER by placing said copies in
FEDERAL EXPRESS, PRIORITY OVERNIGHT, addressed as listed below.

Aaron D. Ford Brian Hardy

Attorney General Kathleen Wilde

Craig A. Newby Marquis Aurbach Coffing
Deputy Solicitor General 10001 Park Run Drive
Office of the Nevada Attorney General Las Vegas, NV 89145
555 E. Washington Avenue bhardy@maclaw.com
Suite 390 kwilde@maclaw.com

Las Vegas, NV 89101
cnewby@ag.nv.gov

 

D CHARLES CLARK
BYAON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 22” day of December, 2020.

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2020.

 

 

 

 

 
